HHS/OIG-Audit--"Effect of the Increased Application of the Comparability Provision on Payments by the Medicare Program and Its Beneficiaries, (A-05-92-00100)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Effect of the Increased Application of the Comparability Provision on
Payments by the Medicare Program and Its Beneficiaries," (A-05-92-00100)
January 29, 1993
Complete Text of Report is available in PDF format
(1.91 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report summarizes the results of our analysis of the implementation
of the Medicare Part B comparability provision and the impact comparability
had on the adjusted historical payment base (AHPB) used to determine payment
amounts under Medicare's Physician Fee Schedule (MPFS). The Medicare comparability
provision provides that the reasonable charge for a service may not exceed the
established charge for non-Medicare policy holders of a carrier for a comparable
service under comparable circumstances. Our audit of 12 high-dollar volume procedures
paid by Blue Shield carriers disclosed that the application of the comparability
provision to the Medicare Part B reasonable charges would have saved the Medicare
program and its beneficiaries $3.9 million for 1986 and $38.0 million for 1990.
In a separate analysis of carrier responses to a 1990 HCFA survey for 30 selected
procedures, the increased application of comparability would have reduced Medicare
and beneficiaries' payments by $25.6 million. The potential payment reductions
associated with the increased application of the comparability provision were
significant. Therefore, we recommended that HCFA consider the savings identified
in this report when updating the MPFS conversion factor as part of the Medicare
volume performance standard rates of increase.